                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




Summary of Special Report



National Security Technologies,
LLC Internal Audit Implementation
Design


This document provides a summary of a Special Report that is not
publicly releasable. Public release is controlled pursuant to the
Freedom of Information Act.




OAS-M-07-05                                       August 2007
This is u surnrnurji of Special Report, OAS-M-07-Oj, entitled "Nutional Security
Tec/znofog~es,  L2LC' Internrrl Audit Implementatiotl Design." The rotnplete report is not
rr\~uiluble.forpublic disclosure.

BACKGROUND

Generally accepted government auditing standards and the Institute of Internal Auditors
(IIA) International Standards for the Professional Practice of Internal Auditing (Standards)
require audit activities to be independent and auditors to be objective in performing their
work. For example, IIA Standards require that the chief audit executive report to a level
within the organization that allows internal audit activities to accomplish its objectives.

Recognizing the importance of independence and objectivity, the Department of Energy
(Department) has included a standard contract clause in its management and operating
contracts requiring contractors to prepare an Internal Audit Implementation Design
(Design) that, among other things, describes the audit activity's placement within the
contractor's organization including reporting requirements. The Department's Acquisition
Guide states that the contractor should structure its organization so that the chief audit
executive reports functionally to the board of directors, audit committee, or equivalent
corporate independent governing body.

In 2006, the Department's National Nuclear Security Administration (NNSA) selected
National Security Technologies, LLC (NSTec), to manage and operate the Nevada Test
Site. During a recent inquiry, we evaluated NSTec's organizational structure to determine
whether it provided internal audit independence envisioned by audit standards and
Departmental guidance.

RESULTS OF AUDIT

NSTec had not provided its internal audit activity with organizational independence.
Specifically, NSTec's current organizational structure requires the internal audit manager to
report directly to the President and Chief Operating Officer, without any functional
reporting requirements to an independent governing body such as a Board of Director's
Audit Conlmi ttee.

Although NSTec developed a Design that provided organizational independence for the
internal audit function, NSTec had not fully implemented the Design. The final Design,
approved by NNSA in April 2007, provided internal audit independence by making the
internal audit manager report functionally to the Board of Directors with open access to the
Board's Audit Committee, and report administratively to the NSTec President and Chief
Operating Officer. Despite the approved Design's requirements, NSTec's Internal Audit
Policy, approved by its President on April 5 , 2007, requires the Manager of Internal Audit
to report directly to the President and Chief Operating Officer and excluded all references
to the Audit Con~n~ittee  and Board of Directors.

We recommended that the Design, approved in 2007, be fully implemented. Management
agreed with the report's conclusions and recommendations.
